VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Benefits 

                                                                     Administration 

                                                                           Audit of 

                                                                      Pension Payments 





                                                                                   September 4, 2013
                                                                                    12-00181-299
            ACRONYMS AND ABBREVIATIONS

EVR         Eligibility Verification Report
IRS         Internal Revenue Service
IVM         Income Verification Match
OIG         Office of Inspector General
PMC         Pension Management Center
PTP         Pension Transformation Project
SSA         Social Security Administration
VBA         Veterans Benefits Administration




      To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                      Report Highlights: Audit of VBA’s
                      Pension Payments

Why We Did This Audit                           rate of duplicate pension records. VBA was
                                                aware of the potential for creating duplicate
VA paid nearly $5 billion in FY 2012 for        records and began taking action to control
pension benefits to over 500,000                them.
low-income veterans or their beneficiaries.
Delayed or incorrect payments have the          What We Recommended
potential to affect the economic status of
eligible veterans and beneficiaries. We         To reduce notification delays, the Under
conducted this audit to determine if the        Secretary for Benefits should ensure Pension
Pension Management Centers (PMCs)               and Fiduciary Service implements a plan to
processed pension payments accurately.          reduce under and overpayments due to
                                                changes in income and dependency, and
What We Found                                   establishes and implements matching
                                                agreements. To reduce processing delays,
Veterans Benefits Administration (VBA)          the Under Secretary should ensure Pension
can improve the timeliness, and therefore       and Fiduciary Service implements new
the accuracy, of pension payment                triage and processing procedures at the
processing. During a 1-year period, an          PMCs.       The Under Secretary should
estimated 93,000 (18 percent) of                implement additional controls to identify
514,000 veterans       and      beneficiaries   and correct duplicate records.
experienced an average 15 month delay in
receiving their new pension award or            Agency Comments
adjustments to their current payment.
Delays resulted in $308 million in              The Under Secretary for Benefits concurred
underpayments      and    $194 million     in   with our recommendations and provided
overpayments. This included retroactive         plans for corrective actions. We consider
adjustments as early as 2006. Once PMC          the actions acceptable and will follow up on
staff processed the claims, they correctly      their implementation.
calculated pension payments for new awards
and adjustments 96 percent of the time.

The delays occurred for two primary
reasons. First, PMCs did not process new
awards and adjustments timely because of
an increased workload and a lack of clear
communication of priorities. Second, PMCs                  LINDA A. HALLIDAY
did not receive timely notification of                 Assistant Inspector General
changes that affected current pension                   for Audits and Evaluations
benefits, and did not have an effective plan
to reduce the time to collect income,
expense, or dependency changes.           In
addition, VBA systems contained a small

                                                                                            i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding 1              Significant Delays in Receiving New Awards and Adjustments to Pension 

                           Payments .............................................................................................................2
 
                           Recommendations .............................................................................................12
 

    Finding 2              Duplicate Records Existed in VBA Corporate Database ..................................17
 
                           Recommendations .............................................................................................18
 

Appendix A                 Background .......................................................................................................20
 

Appendix B                 Scope and Methodology....................................................................................23 


Appendix C                 Statistical Sampling Methodology ....................................................................25 


Appendix D                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments .....................................................................................................32 


Appendix E                 Under Secretary for Benefits Comments ..........................................................33 


Appendix F                 Office of Inspector General Contact and Staff Acknowledgments...................40 


Appendix G                 Report Distribution ...........................................................................................41 





                                                                                                                                                 ii
                                                                 Audit of VBA’s Pension Payments



                    INTRODUCTION
Objective           The VA Office of Inspector General (OIG) performed this audit to determine
                    whether Pension Management Centers (PMCs) processed pension payments
                    accurately.

VA Pension          VA pension is a needs-based benefit paid to low-income veterans with
Program             wartime service or their beneficiaries, who are at least 65 years of age or
                    have permanent and total disabilities not related to their service. According
                    to VA’s FY 2013 Congressional Budget Submission, the Veterans Benefits
                    Administration (VBA) expected to pay nearly $5 billion in pension
                    obligations for approximately 314,000 veterans and 206,000 survivor
                    beneficiaries during FY 2013. Pension awards vary for each veteran and
                    beneficiary depending on their income, medical expenses, and number of
                    dependents. In FY 2013, VBA estimates veterans will receive an average
                    pension of approximately $10,000 per year, and surviving beneficiaries will
                    receive an average pension of about $8,000 per year.

Pension             In January 2002, VBA consolidated pension work to three PMCs located in
Management          Philadelphia, PA; Milwaukee, WI; and St. Paul, MN. In 2008, the PMCs
Centers
                    assumed the responsibility of processing original pension claims previously
                    processed at regional offices. The goal of the consolidation was to improve
                    accuracy, timeliness, and administration of the program.             As of
                    September 30, 2012, the three PMCs had a total workforce of just over
                    1,100 employees. PMCs process new pension awards and adjustments to
                    pension benefits, burial claims, and dependency and indemnity compensation
                    claims. Adjustments to pension benefits can occur when the PMCs receive
                    information, such as Eligibility Verification Reports (EVRs) or Income
                    Verification Matches (IVMs).

Other               The following appendixes provide additional information.
Information
                    	 Appendix A provides additional background information.
                    	 Appendix B provides information about audit scope and methodology.
                    	 Appendix C provides the statistical sampling methodology used in the
                       audit.




VA Office of Inspector General                                                                 1
                                                                   Audit of VBA’s Pension Payments



                    RESULTS AND RECOMMENDATIONS
Finding 1           Significant Delays in Receiving New Awards and
                    Adjustments to Pension Payments

                    VBA can improve the timeliness, and therefore the accuracy, of pension
                    payment processing. During a 1-year period ending March 31, 2012, a
                    projected 93,000 (18 percent) of 514,000 veterans and beneficiaries
                    experienced an average 15 month delay in receiving new pension awards or
                    adjustments to their current pension payments. Delays in establishing new
                    awards or processing adjustments resulted in $308 million in underpayments
                    and $194 million in overpayments to veterans and beneficiaries. However,
                    once PMC staff received the information and processed the claims, they
                    correctly calculated pension payments 96 percent of the time.

                    The delays occurred for two primary reasons. First, PMCs did not process
                    new awards and adjust current pension payments timely because of an
                    increased workload and a lack of clear communication of priorities. Second,
                    PMCs did not receive timely notifications of changes that affected current
                    pension benefits, and did not have an effective plan to reduce the time to
                    collect income, expense, or dependency changes.

                    With improved controls for ensuring timely notifications and effective
                    workload management, VBA could reduce a projected $502 million in
                    underpayments and overpayments to veterans and beneficiaries. The
                    $502 million included retroactive adjustments as early as 2006. VBA has
                    controls in place to ensure veterans and beneficiaries eventually receive their
                    correct pension payments by issuing retroactive benefits or creating debts.
                    However, delays of eligible pension payments could cause potential financial
                    hardship on veterans and beneficiaries who have demonstrated they need the
                    pension to supplement their low income.

Reasons for         PMCs process pension entitlement claims (new awards) and adjust current
Pension             pension eligibility when they receive notification of changes that affect
Claims
                    current benefits (maintenance claims). Pension claims include the following:

                    	 New Awards—When veterans and beneficiaries apply for their initial
                       pension benefit;
                    	 EVRs—When veterans and beneficiaries submit annual updates of their
                       income, net worth, dependency and marital status, and any other
                       information necessary to determine or verify entitlement to pension;
                    	 Income changes—When veterans and beneficiaries experience changes
                       in income or unreimbursed medical expenses;



VA Office of Inspector General                                                                   2
                                                                 Audit of VBA’s Pension Payments


                    	 Dependency changes—When veterans marry or divorce, have a child,
                       the veteran’s spouse dies, or the veteran’s child dies or marries;
                    	 IVMs—When matches identify discrepancies between the Internal
                       Revenue Service (IRS) or Social Security Administration (SSA) income
                       records with income reported to PMCs by the veterans and beneficiaries;
                    	 Nursing home adjustments—When veterans and beneficiaries move to
                       a nursing facility and a Medicaid plan pays for services furnished by the
                       nursing facility.

New Awards          PMCs processed approximately 153,000 (60 percent) retroactive adjustments
and Claims          to about 253,000 pension claims comprised of new awards and maintenance
Adjustments
                    claims during a 1-year period ending March 31, 2012. Approximately
                    111,100 of the 153,000 claims experienced significant notification or
                    processing delays.

New Awards          PMCs processed approximately 44,600 (87 percent) retroactive adjustments
                    to over 51,000 new awards during a 1-year period ending March 31, 2012.
                    New awards experienced processing delays, which resulted in veterans and
                    beneficiaries receiving delayed initial benefits. PMCs were not able to
                    award benefits on an estimated 31,900 new claims within their timeliness
                    goals, which resulted in a projected $148 million in underpayments. PMCs
                    completed the 31,900 new claims an estimated average of 6 months beyond
                    their timeliness goals.

                    	 Approximately 17,400 of the new awards experiencing delays were for
                       pensions to veterans that resulted in $90 million in underpayments.
                       PMCs have a goal to process these new awards within 90 days.
                    	 Approximately 14,500 of the new awards experiencing delays were for
                       pensions to veterans’ beneficiaries that resulted in $58 million in
                       underpayments. PMCs have a goal to process these new awards within
                       65 days.

Maintenance         PMCs processed about 108,400 (54 percent) retroactive adjustments to over
Claims              201,800 maintenance claims during a 1-year period ending March 31, 2012.
                    PMCs completed about 79,200 maintenance claims that experienced
                    notification or processing delays. This resulted in about $354 million in
                    overpayments and underpayments. Specifically:

                    	 PMCs were not notified within 4 months of changes that affect current
                       benefits on about 56,400 claims they adjusted (notification delays),
                       which resulted in underpayments of $115 million and overpayments of
                       $100 million.
                    	 PMCs were not able to adjust payments on almost 52,600 claims within
                       their timeliness goals (processing delays), which resulted in


VA Office of Inspector General                                                                3
                                                                Audit of VBA’s Pension Payments


                        underpayments of nearly $46 million and overpayments of almost
                        $94 million.
                    	 Approximately 29,800 of the 111,100 claims experienced both
                       notification and processing delays noted above. We offset the total to
                       avoid double counting claims (31,900 new awards + 56,400 + 52,600 –
                       29,800 = 111,100).

                    Therefore, payments continued at previous amounts for an estimated average
                    of 15 months until the PMC processed the claim and corrected the pension
                    payment. In total, we identified a projected $502 million in underpayments
                    and overpayments based on claims completed during the 1-year period.
                    VBA has controls in place to create retroactive payments for underpayments
                    and create debts for overpayments. The following figure shows the value of
                    underpayments and overpayments from notification (adjustments to existing
                    maintenance claims) and processing (new awards and adjustments to existing
                    maintenance claims) delays.

Figure




           Source: VA OIG analysis




VA Office of Inspector General                                                               4
                                                                 Audit of VBA’s Pension Payments


Notification        PMCs did not receive notification from veterans and beneficiaries within
Delays              4 months of changes on 56,400 (37 percent) of 153,000 claims requiring
                    adjustment. PMCs generally relied on the veteran or beneficiary to
                    self-report changes; however, PMCs did not receive this information timely.
                    PMCs also use matching programs, such as IVMs to verify accuracy, but did
                    not receive matching information timely.

                    Notification delays caused a projected $215 million in retroactive
                    adjustments consisting of $115 million in underpayments and $100 million
                    in overpayments. Our projections only included payment adjustments that
                    the veteran or beneficiary took more than 4 months to notify the PMC. In
                    the absence of VBA performance requirements addressing the timeliness of
                    these actions, we used a conservative 4-month period as a reasonable
                    expectation that the veteran or beneficiary should notify the PMC. In
                    addition, because PMCs process new awards when veterans and beneficiaries
                    apply for pension benefits, new awards are not subject to notification delays
                    like maintenance claims.        Table 1 provides a summary of projected
                    notification delays and adjusted payment amounts by type of claim.

Table 1
                                  Projected Notification Delays by Claim Type
                                              (dollars in millions)
                                                                                       Total
                       Pension Claim       Delayed        Under-         Over-
                                                                                      Adjusted
                           Type          Adjustments     Payments       Payments
                                                                                      Amounts

                       EVR                  33,700            $83          $30        $113
                       Income and
                       Dependency           18,200             32           11           42
                       Change
                       IVM                    3,900              0          55           55
                       Nursing Home/
                       Hospital                600             <1             5           5
                       Adjustment
                       Total                56,400           $115         $100        $215
                     Source: VA OIG analysis of pension claims completed April 2011
                     through March 2012
                     Note: Because of rounding, columns and totals may not sum.

EVRs                PMCs processed a projected 33,700 claims involving more than 4 months of
                    retroactive adjustments based on EVRs submitted by veterans and
                    beneficiaries. Veterans and beneficiaries used EVRs to submit annual
                    updates of their income, net worth, dependency and marital status, and any
                    other information necessary to determine or verify entitlement to a pension.

VA Office of Inspector General                                                                 5
                                                                  Audit of VBA’s Pension Payments


                    According to VA’s 2012 Performance and Accountability Report, VBA
                    requested approximately 140,000 EVRs in 2011.

                    The very nature of the EVR process (as it involves reporting changes) caused
                    retroactive adjustments. VBA required veterans and beneficiaries to estimate
                    income and medical expense information at the beginning of the reporting
                    period. PMCs used the estimated information to determine the amount of
                    pension benefits. At the end of the period, veterans and beneficiaries who
                    had income other than Social Security submitted an EVR that noted actual
                    income and expenses incurred during the year. PMCs adjusted prior
                    payments based on the actual information provided at the end of the period.
                    As a result, veterans and beneficiaries who submitted an EVR generally
                    received a retroactive lump-sum payment to offset an underpayment or
                    incurred a debt to pay back an overpayment. An example of an adjustment
                    based on EVR information follows.

                         In March 2011, a veteran submitted an EVR that noted changes in
                         unreimbursed medical expenses for the prior calendar year. In
                         November 2011, the PMC completed processing the EVR and
                         issued the veteran a retroactive payment of $16,860. The
                         retroactive payment was to adjust payments VBA made from
                         March 2010 to November 2011. In this case, inaccurate monthly
                         benefit payments occurred prior to receipt of the claim (from
                         March 2010 through March 2011), as well as during processing
                         (from April 2011 through November 2011).

                    We identified a projected $113 million in underpayments and overpayments
                    that occurred before the PMCs received the EVRs. This consisted of about
                    $83 million in underpayments and $30 million in overpayments.

EVRs                In December 2012, VBA officials stated they discontinued requesting EVRs.
Discontinued        Under this change, veterans and beneficiaries do not have to submit an
                    annual EVR to continue receiving pension payments. VBA will further rely
                    on veterans and beneficiaries to self-report changes. In 2013, VBA sent a
                    letter to all pension recipients to inform them they are no longer required to
                    submit an EVR. The letter noted that veterans and beneficiaries are still
                    responsible for notifying VA of any changes in income, status of dependents,
                    or the amount of unreimbursed medical expenses paid. The letter provided
                    instructions on how to continue to submit this information. Elimination of
                    EVRs could reduce processing delays that occurred for the end of the year
                    reporting but presents a risk that PMCs will not receive changes that affect
                    eligibility. To mitigate this risk, VBA should implement procedures to
                    ensure continued eligibility. Routine checks of veterans and beneficiaries
                    eligibility could ensure they receive their correct pension entitlements.




VA Office of Inspector General                                                                  6
                                                                 Audit of VBA’s Pension Payments


Income and          PMCs processed a projected 18,200 claims involving more than 4 months of
Dependency          retroactive adjustments based on income and dependency changes. PMCs
Changes
                    are required to adjust benefits dollar-for-dollar based on changes in annual
                    income, or medical expenses above a threshold. This means that when a
                    veteran or beneficiary incurs additional unreimbursed medical expenses,
                    their eligible payment amount could increase. An example of an income
                    change because of unreimbursed medical expenses follows.

                         During 2011, a surviving spouse received $282 a month in pension
                         payments. In December 2011, the beneficiary submitted a medical
                         expense report stating unreimbursed medical expenses of
                         $75,609 incurred in 2011. In March 2012, the PMC issued a
                         retroactive payment of $4,561 after making an adjustment to offset
                         the medical expenses associated with the beneficiary’s income. The
                         PMC issued the retroactive payment to adjust payments from
                         February 2011 through January 2012 because that is when the
                         unreimbursed medical expenses occurred and the beneficiary was
                         eligible for a higher pension payment.

                    To mitigate delays in dependency changes due to a veteran’s death, PMCs
                    use a data-matching program with the SSA, which notifies them of deaths on
                    a monthly basis. However, PMCs are reliant on the veteran or beneficiary
                    notifying them timely of changes in income, unreimbursed medical expenses,
                    or other dependency changes.          As a result, over $42 million in
                    underpayments and overpayments occurred because of delays receiving
                    income and dependency change notifications. This consisted of about
                    $32 million in underpayments and just under $11 million in overpayments.

                    In March 2012, VBA established a team to formulate and implement
                    strategies to reduce the amount of high-dollar overpayments. According to
                    VA’s FY 2013 First Quarter Report on High-Dollar Overpayments, the
                    high-dollar overpayments identified in the Pension and Fiduciary Service are
                    generally a result of changes in income, unreimbursed medical expenses,
                    death, or dependency. Part of the VBA team’s action plans consisted of
                    developing recommendations to reduce improper payments.

                    However, unlike other VBA programs, Pension and Fiduciary Service had
                    not established a workgroup or timeline to develop recommendations.
                    Because veterans and beneficiaries typically submitted income, medical
                    expenses or dependency changes in annual EVRs, PMCs could now receive
                    an increase in the number of income and dependency changes from veterans
                    and beneficiaries throughout the year. Pension and Fiduciary Service should
                    implement a plan to reduce the amount of underpayments and overpayments
                    due to changes in income and dependency.

IVMs                PMCs processed a projected 3,900 claims involving more than 4 months of
                    retroactive adjustments based on IVMs. IVMs compare income reported to

VA Office of Inspector General                                                                7
                                                                   Audit of VBA’s Pension Payments


                    PMCs by the veterans and beneficiaries to IRS or SSA records. However,
                    IVMs did not provide PMCs with timely matching information to verify
                    benefits. PMCs did not receive IVMs pertaining to calendar year 2008 until
                    August 2011, and did not receive calendar year 2007 IVMs until July 2009.
                    The following is an example of an IVM adjustment.

                         A PMC received an IVM in July 2009 due to income discrepancies
                         between veteran-reported income and IRS-reported income for
                         calendar year 2007. The PMC did not complete the adjustment
                         until April 2011, which resulted in total overpayments of
                         $13,720. Of those overpayments, $12,208 occurred during the
                         29 months prior to the PMC receiving the IVM.

                    From a review of IVMs, we identified a projected $55 million in
                    overpayments. VBA agreed to, but had not yet implemented, an enhanced
                    interagency agreement with the IRS and SSA that would allow VBA to
                    verify eligibility earlier in the claim process. If implemented, this could also
                    allow PMCs to receive IVM data electronically and more frequently. VBA
                    should implement the use of the exchange agreements to reduce delays in
                    verifying veteran and beneficiary reported income.

Nursing Home        PMCs processed a projected 600 claims involving more than 4 months of
Adjustments         retroactive adjustments based on hospital or nursing home adjustments.
                    VBA does not have adequate verification controls, such as a matching
                    program, to identify when a veteran or beneficiary moved to a nursing home
                    and received Medicaid benefits. Policy states VBA must not pay a veteran
                    or beneficiary more than $90 per month for any period after Medicaid
                    benefits begin. An example of a nursing home adjustment follows.

                         A veteran who moved into a nursing home began receiving
                         Medicaid benefits in May 2008. However, the veteran continued to
                         receive unreduced pension benefits each month (as much as $1,644)
                         until the nursing home notified the PMC in July 2011. VBA
                         overpaid the veteran $49,781 during the notification delay. The
                         PMC subsequently reduced the benefit to $90 per month in
                         November 2011. According to policy, the veteran or beneficiary is
                         not liable for any pension paid in excess of $90 per month, unless it
                         is the result of willful concealment of information by the recipient.
                         VBA does not recoup overpayments of this nature.

                    We identified a projected $5 million in overpayments that occurred from
                    hospital or nursing home adjustments. This occurred generally because
                    PMCs were unaware a veteran or beneficiary was receiving Medicaid
                    benefits. Prior reviews have also identified issues regarding PMC staff not
                    reducing veterans’ or beneficiaries’ pension benefits to $90 when they are in
                    nursing homes paid by Medicaid. These reviews found that veterans and
                    beneficiaries did not notify PMCs of receipt of Medicaid benefits.

VA Office of Inspector General                                                                    8
                                                                Audit of VBA’s Pension Payments


                    In 2010, VBA stated they were in the process of drafting a
                    computer-matching agreement with the Centers for Medicare and Medicaid
                    Services that would automatically identify pension recipients who receive
                    Medicaid benefits. Pension and Fiduciary Service officials stated their
                    ability to implement the agreement depends on the availability of
                    information technology resources and the cost for conducting the match. To
                    ensure PMCs limit payments over $90 to veterans and beneficiaries who
                    receive Medicaid benefits, we recommend VBA establish a matching
                    program with Medicaid to identify those requiring nursing home
                    adjustments.

Processing          PMCs completed approximately 84,500 (55 percent) of 153,000 claims,
Delays              which included about 31,900 new awards, that required retroactive
                    adjustments outside of their timeliness goals. Processing delays of new
                    awards accounted for a projected $148 million of the $193 million total
                    underpayments. Processing delays of adjustments caused a projected
                    $46 million in underpayments and $94 million in overpayments. In total, we
                    projected $287 million in adjusted payments. Our projections only included
                    payments made outside of VBA’s timeliness goals. Table 2 provides a
                    summary of projected processing delays by type of claim and adjusted
                    payment amounts.

Table 2
                                    Projected Processing Delays by Claim Type
                                               (dollars in millions)
                       Pension Claim                                                Total
                                         Delayed         Under-        Over-
                           Type                                                    Adjusted
                                        Adjustments     Payments      Payments
                                                                                   Amounts

                       EVR                  28,100          $19           $33         $52
                       Income and
                       Dependency           20,900           25            42           67
                       Change
                       IVM                     760            0             9            9

                       New Award            31,900          148             0          148
                       Nursing Home/
                       Hospital              2,900            1            10           11
                       Adjustments
                       Total                84,500         $193           $94         $287
                      Source: VA OIG analysis of pension claims completed April 2011
                      through March 2012
                      Note: Because of rounding, columns and totals may not sum.


VA Office of Inspector General                                                                9
                                                                 Audit of VBA’s Pension Payments


                    VBA policy includes timeliness goals based on cumulative average days to
                    complete claims, noted in Appendix C, Table 5. The goals measure the date
                    the PMC receives the claim to the date the PMC adjusts or completes the
                    claim. We found the major obstacles preventing timely processing of
                    pension claims were an increased workload and a lack of clear
                    communication of priorities. In 2011, a study contracted by VBA identified
                    opportunities for improvement with intake operations, claims processing
                    designs, and workload reprioritization at the PMCs.

Workload            PMC managers identified the high volume of work as the key challenge to
                    meeting timeliness goals. PMCs’ pending and completed pension workload
                    of the six types of claims we reviewed (outlined in Table 4 in Appendix C)
                    increased from FY 2011 to FY 2012. While the workload demand increased,
                    as shown in Table 3, PMC staffing levels increased from 1,099 in
                    FY 2009 to just under 1,130 in FY 2012—an increase of about 3 percent.

Table 3
                                      Pension Workload for FYs 2011–2012

                                                                                    Percent
                        Status of Work      FY 2011       FY 2012      Increase
                                                                                    Increase

                       Completed             295,064      340,851       45,787          16

                       Pending                93,835      136,254       42,419          45
                       Source: Veterans Service Network Operation Reports

                    Delays in processing new awards accounted for a projected $148 million in
                    delayed payments to veterans or beneficiaries initially applying for a VBA
                    pension to supplement their financial need. PMC staff noted that
                    development of new claims (requesting and receiving additional information)
                    also added to processing time. To allow for faster processing of new claims,
                    VBA implemented the Fully Developed Claims Program. In the Fully
                    Developed Claims Program, veterans and beneficiaries submit a claim form,
                    required evidence, and certify they have nothing further to provide. The aim
                    of the Fully Developed Claims Program is to allow PMCs the ability to
                    complete new awards within 90 days of receipt.

                    PMC workload included a large amount of seasonal EVR workload every
                    January to March. VBA anticipates the removal of EVRs could eliminate as
                    many as 150,000 work items associated with EVR processing each year. As
                    a result, VA stated the elimination of EVRs allows VBA to redirect more
                    than 100 full-time employees to work on eliminating the claims backlog.

Processing          Processing priorities of claims changed frequently. PMC staff and managers
Priorities          had varying understandings of processing priorities. One PMC considered

VA Office of Inspector General                                                                 10
                                                                  Audit of VBA’s Pension Payments


                    ratings claims, death claims, and some maintenance work as their priorities.
                    Another PMC considered all claims the same and no type of claim received
                    priority over any other type. Another PMC prioritized the oldest claims first.

                    VBA policy requires a written workload management plan to control how
                    claims and other work move through the adjudicative process. While all
                    three PMCs had a workload management plan, two of the three PMCs did
                    not clearly define the priorities of claims PMC teams were to process in their
                    plans. The third PMC had an overall policy that staff should process the
                    oldest claims first, and their workload management plan clearly defined the
                    priority of claims for staff to process.

                    For example, their workload management plan instructed a Veteran Service
                    Representative on the maintenance team to run a workload report the first
                    workday of the week to identify specific types of claims and the priority
                    order staff processed claims. The priority of claims to be worked is clearly
                    outlined and broken down by position within each team. That PMC had a
                    lower amount of underpayments and overpayments during processing delays
                    than the two PMCs that did not clearly define processing priorities. PMCs
                    should clearly outline processing priorities in their workload management
                    plans.

Processing          Pension and Fiduciary Service officials agreed that improved timely
Initiatives         processing of benefit adjustments would reduce the amount of retroactive
                    adjustments. They noted that to improve management of PMC workload,
                    they plan to revise triage procedures and establish processing lanes at the
                    PMCs. In this plan, based in part on a contracted Pension Transformation
                    Project (PTP) study provided to VBA in 2011, Pension and Fiduciary
                    Services will work closely with the PMCs and the Office of Field Operations
                    to manage PMCs’ workload.

                    According to the PTP study, opportunities for improvement exist in intake
                    operations, claims processing designs, and workload reprioritization. Based
                    on existing best practices at each PMC, the PTP study recommended a
                    simplified intake design that would divide incoming correspondence into
                    three categories and reduce excessive sorting and handling. The study found
                    one PMC established claims at a higher rate using a simplified routing
                    structure.

                    The PTP study also identified that as much as 70 percent of maintenance
                    claims can be processed immediately upon receipt. This means the PMC
                    could complete these claims quickly because they would not have to request
                    further information. Any inefficiency means that these claims accumulate
                    quickly, adding significantly to the PMCs’ pending workload. In May 2012,
                    VBA issued guidance on a new function in VBA systems that allowed users
                    to track claims that are ready for a decision. The PTP study noted, to


VA Office of Inspector General                                                                 11
                                                                 Audit of VBA’s Pension Payments


                    improve performance, PMCs must identify the ready-to-work claims and be
                    efficient in completing them.

                    VBA should implement their plan to revise triage procedures and establish
                    processing lanes to ensure prompt screening and routing of claims. Revised
                    triage and processing procedures, along with available resources from
                    eliminating EVRs could reduce delays in adjusting payments. This could
                    lessen the impact of underpayments and overpayments on veterans and
                    beneficiaries.

PMCs                Once PMCs received and processed the claims, staff correctly calculated
Correctly           payment adjustments 96 percent of the time. We identified a small amount
Calculated
Pensions
                    of errors that occurred from staff incorrectly applying policy or
                    miscalculating income and expenses. VBA reviews the accuracy of PMC
                    maintenance work through their Systematic Technical Accuracy Review.
                    For the 1-year period ending October 31, 2012, the review reported an
                    accuracy rate of 98 percent for maintenance workload. The following is an
                    example of an incorrectly calculated pension.

                         A veteran notified the PMC of income and medical expense
                         changes. Based on this information, the PMC adjusted prior
                         payments and issued a retroactive payment of $6,192. However, the
                         staff miscalculated the medical expenses by not using the most
                         current estimates and by counting a yearly medical deductible as a
                         monthly deductible, which caused an overpayment of $1,656.

Conclusion          VBA needs to improve pension processes to ensure veterans and
                    beneficiaries receive new and adjusted pension payments when eligible.
                    While VBA has controls in place to make retroactive payment adjustments,
                    the delayed pension payments have the potential to adversely affect the
                    economic status and quality of life of eligible pension recipients. The
                    population receiving pensions from VBA are generally elderly or disabled
                    and have fixed or limited income. They receive a specific amount of VBA
                    pension payments to supplement any current income to bring them up to a
                    level set by Congress. Underpayments leave them below that level, and
                    overpayments could result in disruption of future benefits. If PMCs obtained
                    change information within 4 months of the change in eligibility and
                    processed adjustments, and new claims within established timeliness goals,
                    VBA could reduce underpayments and overpayments by a projected
                    $502 million.

                    Recommendations
                    1.	 We recommended the Under Secretary for Benefits ensure the Pension
                        and Fiduciary Service implements procedures that ensure continued
                        veteran and beneficiary eligibility.


VA Office of Inspector General                                                                12
                                                                  Audit of VBA’s Pension Payments


                    2.	 We recommended the Under Secretary for Benefits ensure the Pension
                        and Fiduciary Service implements a plan to reduce the amount of
                        underpayments and overpayments due to changes in income and
                        dependency.
                    3.	 We recommended the Under Secretary for Benefits implement the use of
                        the enhanced Interagency Exchange Agreements with the Internal
                        Revenue Service and Social Security Administration to reduce delays in
                        verifying veteran and beneficiary reported income.
                    4.	 We recommended the Under Secretary for Benefits establish a matching
                        program with Medicaid to automatically identify veterans and
                        beneficiaries that require nursing home adjustments.
                    5.	 We recommended the Under Secretary for Benefits ensure the Pension
                        Management Centers clearly outline processing priorities in their
                        workload management plans.
                    6.	 We recommended the Under Secretary for Benefits ensure the Pension
                        and Fiduciary Service implements its plan to revise triage procedures and
                        establish processing lanes to ensure prompt screening and routing of
                        claims.

Management          The Under Secretary for Benefits concurred with our recommendations. The
Comments            Under Secretary agreed with the central finding that VBA could improve the
and OIG
Response
                    timeliness of pension payment processing, and stated VBA is constantly
                    seeking ways to improve claims processing and provide better service to
                    claimants. The Under Secretary agreed that delays in processing adjustments
                    to existing awards create under- and overpayments, and that both under- and
                    overpayments should be reduced. Although the Under Secretary questioned
                    whether some of OIG’s recommendations would in fact remedy problems
                    identified during the audit, we believe VBA’s actions are responsive to the
                    intent of our recommendations.

                    Based on actions taken by VBA, we consider Recommendation 2 closed.
                    The Under Secretary concurred with Recommendation 6, but noted that the
                    establishment of processing lanes would not contribute to the prompt
                    screening and routing of claims. The Under Secretary agreed to revise triage
                    procedures for PMCs to facilitate prompt screening and routing of claims,
                    and we believe this meets the intent of the recommendation.

                    We will monitor implementation of these actions and will close the
                    recommendations when we receive sufficient evidence demonstrating VBA
                    progress in addressing the issues identified. See Appendix E for the full text
                    of the Under Secretary’s comments. The following is a summary of the
                    Under Secretary’s additional comments and our responses.

                    Management Comments Regarding Processing Priorities: The Under
                    Secretary acknowledged a workload management plan is necessary to

VA Office of Inspector General                                                                 13
                                                                  Audit of VBA’s Pension Payments


                    achieve efficiency. However, the Under Secretary disagreed that clearly
                    outlining processing priorities in workload management plans would
                    necessarily improve processing of pension claims. OIG assumes that PMC’s
                    established priority would automatically default to pension claims. Because
                    PMCs process more than just pension claims, prioritization of any part of the
                    PMC workload results in resources that will not be available to work other
                    PMC claims. The Under Secretary stated it is unclear whether this
                    recommendation will meaningfully address the problem of delays in
                    processing pension claims. However, the Under Secretary agreed to the
                    recommendation and stated the PMC workload management plans will be
                    assessed and modified as appropriate. The Office of Field Operations will
                    work with Pension and Fiduciary Service to ensure that each PMC’s
                    workload management plan clearly defines priorities and employee’s roles
                    for working pension claims.

                    OIG Response: It is VBA’s responsibility to prioritize their workload in a
                    manner they determine best meets the needs of veterans and beneficiaries.
                    As acknowledged by the Under Secretary, establishing clear workload
                    priorities would clarify expectations about workload and the current priority
                    of effort. Communications regarding the requirements of a workload
                    management plan is necessary to achieve efficiency. We found that the PMC
                    with a lower amount of underpayments and overpayments during processing
                    delays had clearly outlined the priority of claims to be worked by position
                    within each team. We believe a workload management plan that clearly
                    defines priorities and employees’ roles for working pension claims would
                    increase efficiency.

                    Management Comments Regarding Underpayments Associated With
                    New Awards: VBA agreed that delays in processing adjustments to existing
                    awards create under- and overpayments, but did not agree that delays in
                    processing new pension claims produced underpayments. The Under
                    Secretary stated that although delays in processing claims may cause undue
                    hardship for some claimants, the veteran or beneficiary is made whole
                    (receives their full benefit) when VBA eventually processes the claim and
                    makes payment.

                    OIG Response: We disagree that delays in processing new pension claims
                    cannot produce underpayments. VBA’s goal is to process new pension
                    awards in 65 days (for pensions to veterans’ beneficiaries) and 90 days (for
                    pensions to veterans). OIG’s position is that any new award that took longer
                    than VBA’s processing goal resulted in an underpayment. PMCs completed
                    an estimated 31,900 new pension awards an average of 6 months beyond
                    their timeliness goals.

                    As the Under Secretary stated in her response, an initial applicant for a new
                    pension is not likely to be receiving any VA benefits. Until VBA awards
                    that benefit, the veteran or beneficiary is being underpaid and living below a

VA Office of Inspector General                                                                 14
                                                                 Audit of VBA’s Pension Payments


                    Congressionally set standard of living. While VBA attempts to make the
                    veteran or beneficiary “whole” when the claim is processed, VBA cannot
                    account for the potential hardship the claimant endured while waiting for
                    VBA to complete their claim.

                    Management Comments Regarding Program Design: The Under
                    Secretary agreed that improving the timeliness of pension maintenance
                    claims will reduce the amount of under- and overpayments, but disagreed
                    that benefit adjustments are avoidable. The pension program operates
                    retroactively by design; both VA and the applicant lack perfect information
                    on whether income, medical expenses, or dependency will in fact change
                    during the reporting period.

                    The Under Secretary stated that VBA faces challenges to reduce under- and
                    overpayments because VBA has no control in claimants reporting behavior,
                    and many claimants have no incentive to timely report changes in
                    entitlement. Claimants who fail to timely report income and status changes
                    and benefit from an overpayment suffer no consequences other than the
                    creation and possible repayment of a debt to the Government. VA
                    regulations and VBA communications currently notify beneficiaries that they
                    must report changes in income or circumstances that affect entitlement
                    status. Where VBA cannot independently detect status changes, it will be
                    unable to significantly reduce the under- and overpayments caused by
                    untimely beneficiary reporting.

                    OIG Response: Our report points out the need to reduce under- and
                    overpayments—not eliminate them. As noted in Appendix C, we identified
                    a total of over $751 million in underpayments and overpayments based on
                    claims completed during the 1-year period. We acknowledge that PMCs
                    generally rely on claimants to provide information. In the absence of VBA
                    performance requirements, we used a conservative 4-month period as a
                    reasonable expectation that the veteran or beneficiary should notify the PMC
                    when their status changes. We adjusted our findings to allow processing
                    time for claims completed within VBA’s timeliness goals, as well as a
                    notification time of 4 months. The adjusted results totaled approximately
                    $502 million in underpayments and overpayments.

                    VBA’s use of reminders was not effective in prompting claimants to report
                    any changes in status in a timely manner. According to VA’s FY 2013 First
                    Quarter Report on High-Dollar Overpayments, the high-dollar overpayments
                    identified in the Pension and Fiduciary Service are generally a result of
                    changes in income, unreimbursed medical expenses, death, or dependency.
                    Part of the VBA team’s action plans consisted of developing
                    recommendations to reduce improper payments. However, unlike other
                    VBA programs, Pension and Fiduciary Service had not established a
                    workgroup or timeline to develop recommendations.


VA Office of Inspector General                                                               15
                                                                  Audit of VBA’s Pension Payments


                    Now that claimants cannot submit income, medical expenses, and
                    dependency changes in annual EVRS, PMCs could now receive an increase
                    in the number of income and dependency changes from veterans and
                    beneficiaries throughout the year. Pension and Fiduciary Service should
                    implement a plan to reduce the amount of underpayments and overpayments
                    due to changes in income and dependency.

                    Management Comments Regarding Timeliness and Accuracy: The
                    Under Secretary had concerns with OIG’s link of timeliness to accuracy and
                    the implication that VBA can somehow enforce expedited reporting to VA
                    when beneficiary circumstances change. The Under Secretary stated that
                    accuracy, when used in the context of claims adjudication, typically refers to
                    an assessment of whether VA employees followed policies and procedures.

                    OIG Response: We determined the difference between the benefits VBA
                    paid versus the benefits a veteran or beneficiary should have received if
                    PMCs had completed the claim timely. If the veteran or beneficiary received
                    an incorrect amount of pension due to delays, we considered that as an
                    inaccuracy.




VA Office of Inspector General                                                                 16
                                                                   Audit of VBA’s Pension Payments


Finding 2           Duplicate Records Existed in VBA Corporate Database

                    VBA’s corporate database contained up to 150 duplicate pension records.
                    These duplicate records occurred because VBA relied on PMC staff to
                    identify pre-existing records prior to creating a new record. As a result of the
                    identified duplicate pension records, VBA is at risk of paying approximately
                    $660,000 in duplicate payments over a 1-year period.

Duplicate           A newspaper article dated September 22, 2012, detailed concerns that VBA
Payments and        paid duplicate payments as a result of duplicate records in VBA systems.
Records
Concerns
                    The article alleged VA was unaware and unresponsive regarding issues
                    associated with duplicate payments. In addition, we had a number of
                    conversations with a VBA employee who was adamant that duplicate records
                    and payments existed. In response to the newspaper article, VA wrote an
                    informational paper that explained duplicate records and controls regarding
                    the issue. A portion of VA’s explanation of the issue follows:

                         Each communication to VA presents an opportunity for a claimant
                         to submit a variation of identifying information, e.g., Mary L. Smith
                         instead of Mary Smith, or an incorrect Social Security number.
                         When entered by a VA employee, these variations may produce a
                         duplicate record. However, duplicate records generally do not
                         result in duplicate payments.

                    VA’s informational paper concluded duplicate payments were not a systemic
                    problem, and VA cannot avoid the temporary establishment of a small
                    number of duplicate records.

Duplicate           At the end of 2012, VBA began performing four weekly data tests in an
Records             attempt to identify duplicate records and prevent them from becoming
                    duplicate payments. According to a VBA official, these data tests look for
                    the following items:

                       Multiple awards per file number;
                       Duplicate payments made to the same file number and payee code;
                       Running awards for deceased beneficiaries;
                       Running awards for suspended entitlements.

                    We performed an additional data test that identified pension recipients’
                    records with similar or same names under the same file numbers. From the
                    March 2012 population of about 514,000 pension records, we identified
                    298 records with similar or same names within 148 individual electronic
                    files. This means there were up to 150 duplicate records (298 total records
                    minus 148 individual electronic files). The records had the same or similar
                    names as other records under the same file number but different identifying

VA Office of Inspector General                                                                   17
                                                                  Audit of VBA’s Pension Payments


                    information. A non-statistical review of 20 file numbers identified
                    18 containing duplicate records. Because some of the duplicate records had
                    current payments, we provided the list of records to Pension and Fiduciary
                    Service officials for their review. In regard to the two file numbers that did
                    not contain duplicate records, VBA systems showed the incorrect name, such
                    as “First Child,” instead of the actual name of the child beneficiary.

                    The duplicate records occurred when PMC staff created a new record for a
                    veteran or beneficiary that already had a record in VBA’s corporate database.
                    VBA did not have system controls in place to prevent users from creating
                    duplicate records. VBA was aware of the potential for creating duplicate
                    records and stated training was ongoing to limit the creation of duplicate
                    records. According to a July 2012 Pension and Fiduciary Service bulletin,
                    VBA implemented system controls to prevent users from creating duplicate
                    personal identification numbers in the system. In addition, a VBA official
                    told us they rely on the due diligence of the staff to locate pre-existing
                    records and have a help desk for users to report identified issues. To ensure
                    VBA identifies additional duplicate records, we recommend they add the test
                    we performed to their current series of data tests.

                    As a result of PMC staff creating duplicate pension records, VBA made
                    duplicate payments to veterans and beneficiaries. Based on the award
                    amounts of the records with similar or same names, VBA is at risk of paying
                    approximately $660,000 a year in duplicate pension benefits.

Conclusion          VBA’s risk exposure to significant duplicate pension payments was
                    considered low based on the number of duplicate pension records and
                    average award amounts. However, any level of duplicate payments is
                    unacceptable. VBA was aware of issues with duplicate pension records and
                    began taking action to control them. This included training at PMCs and
                    implementing a system control to prevent duplicate personal identification
                    numbers. VBA still needs to make improvements in identifying and
                    correcting future duplicate records.

                    Recommendations
                    7.	 We recommended the Under Secretary for Benefits ensure the Pension
                        and Fiduciary Service corrects the duplicate records identified in this
                        audit.
                    8.	 We recommended the Under Secretary for Benefits ensure the Pension
                        and Fiduciary Service requests an additional data test be added to its
                        current series of data tests that would identify claimant records with
                        similar or same names under the same file number.




VA Office of Inspector General                                                                 18
                                                               Audit of VBA’s Pension Payments


Management          The Under Secretary for Benefits concurred with our recommendations, and
Comments            stated VBA is working with PMCs and other VBA offices to correct the
and OIG
Response
                    duplicate records, and coordinating with VA Office of Information and
                    Technology to develop an additional data test. The Under Secretary’s
                    comments and action plans were responsive to the intent of our
                    recommendations. We will monitor implementation of these actions and will
                    close the recommendations when we receive sufficient evidence
                    demonstrating VBA progress in addressing the issues identified.
                    Appendix E contains the full text of the VBA’s comments.




VA Office of Inspector General                                                             19
                                                                   Audit of VBA’s Pension Payments


Appendix A          Background

Eligibility         Veterans with low income, who served during a period of war and are
                    permanently and totally disabled, or 65 or older, may be eligible for a
                    pension. Death pension provides payments to low-level income surviving
                    spouses and unmarried children of deceased veterans with wartime service.
                    VA bases entitlement and payment rates on veterans’ and beneficiaries’
                    applicable income from other sources including other retirement, Social
                    Security, annuities, and interest or dividends. Unreimbursed medical
                    expenses may reduce applicable income for VBA purposes, thereby
                    increasing VBA pension payments.

Accuracy
           VA’s Performance and Accountability Report provides national accuracy
Measures
           rates for pension claims. The national accuracy rate for pension maintenance
                    claims has increased each year since 2007—starting at 91 percent and
                    reaching 97 percent in 2011. This was just below the strategic target of
                    98 percent. The national accuracy rate for pension entitlement claims ranged
                    from 91 percent to 98 percent during the same time, which met the strategic
                    goal. Pension maintenance claims are adjustments to active pension
                    entitlements, and pension entitlement claims are generally new awards.

Pension 
           At a March 2011 Congressional hearing, a VBA official stated the Secretary
Initiatives 
       of VA approved a new organizational structure for VBA headquarters.
                    Under this new structure, VBA separated the Fiduciary and Pension Program
                    functions from the Compensation Program in VBA headquarters. This
                    created a Pension and Fiduciary Service separate from Compensation
                    Service. VBA also stated they were in the process of integrating rules-based,
                    automated processing, and other calculator tools to improve the accuracy of
                    compensation and pension decisions and free employees working on simple
                    claims to concentrate on claims that were more complex. At the time of this
                    audit, VBA had not begun testing rules-based processing for pension claims.

                    As of December 2012, VBA informed us they discontinued the use of EVRs.
                    VA estimates it would have sent nearly 150,000 EVRs to beneficiaries in
                    January 2013. Starting in 2013, Pension and Fiduciary Service officials
                    stated veterans and beneficiaries will instead receive a letter requesting they
                    submit a form if any changes occur that would affect their pension eligibility.

                    In 2013, VBA plans to modify pension claims processing in an effort to
                    effectively manage workload and improve efficiency at the PMCs. The plan
                    includes potential changes to triaging incoming information, as well as
                    implementing specialized processing lanes. PMCs will also have the ability
                    to verify new claim information at the beginning of the process.

Prior Audits        The Government Accountability Office report, Improvements Needed to
and Reviews         Ensure Only Qualified Veterans and Survivors Receive Benefits (Report
                    No. GAO-12-540, May 15, 2012), identified VBA’s pension program design

VA Office of Inspector General                                                                  20
                                                                   Audit of VBA’s Pension Payments


                    and management did not adequately ensure only qualified veterans and
                    beneficiaries received pension benefits. Veterans and beneficiaries can
                    transfer assets immediately before applying and still receive approval for
                    benefits. They recommended Congress establish a look-back and penalty
                    periods for pension recipients who transfer assets for less than fair market
                    value prior to applying. Specifically, VA should:

                    	 Request information about all assets and asset transfers on pension
                       application forms;
                    	 Verify financial information during the initial claims process;
                    	 Collaborate with VA’s Fiduciary Program to share claimant financial
                       information;
                    	 Provide clearer guidance to claims processors assessing claimants’
                       eligibility.

                    VA concurred with three of the recommendations and concurred in principle
                    with one, citing concerns about the potential burden on recipients verifying
                    reported financial information. VA agreed to study the issue further.

                    The VA OIG report, Review of Pension Maintenance Centers (Report
                    No. 10-00639-135, March 30, 2011), found VBA did not process original
                    death pension benefits and IVMs timely. The untimely processing of IVMs
                    resulted in overpayments. VA OIG recommended VBA establish an
                    operational plan to ensure PMCs efficiently and effectively manage
                    workload. OIG also recommended VBA establish timeliness performance
                    standards for completing IVMs to reduce overpayments and to modify
                    Performance Accountability Report measures to reflect the current workload
                    and ensure transparency over actual performance. VBA concurred with the
                    findings, all four recommendations, and submitted action plans. As of
                    April 2013, VBA had not finalized an operational plan to ensure PMCs
                    efficiently and effectively manage workload, or implemented specific
                    performance goals to measure IVM timeliness.

                    VA’s Management Quality Assurance Service conducted reviews of the
                    PMCs (Milwaukee in 2008, Philadelphia in 2009, and St. Paul in 2011) as
                    part of their annual review plan. All three reviews identified issues regarding
                    PMC staff not properly reducing veteran and beneficiary pension benefits to
                    the applicable $90 rate when they are in nursing homes paid by Medicaid. In
                    most cases, PMC staff were unaware the veteran or beneficiary was in a
                    nursing home because they failed to notify PMC staff of receiving Medicaid
                    benefits.

                    The Government Accountability Office audit, Improved Management Would
                    Enhance VA’s Pension Program (Report No. GAO-08-112,
                    February 14, 2008), reported VA does not require documentation, such as
                    bank statements or asset statements, when pensioners apply for initial

VA Office of Inspector General                                                                  21
                                                                 Audit of VBA’s Pension Payments


                    pension claims nor when completing the annual EVR. VA did not concur
                    that pensioners should supply documentation of income and net worth for
                    initial pension applications and stated this “could be onerous to individuals
                    and possibly diminish timeliness of initial pension eligibility decisions.”




VA Office of Inspector General                                                                22
                                                                 Audit of VBA’s Pension Payments


Appendix B          Scope and Methodology

Scope               We conducted our audit work from June 2012 through July 2013. This audit
                    focused on completed decisions (claims) by PMC staff during the 1-year
                    period ending March 31, 2012. During this period, PMCs received and
                    completed claims for about 199,000 veterans and beneficiaries.

Methodology         We accomplished the following to address our audit objective.
                    	 Interviewed employees with pension responsibilities at central office and
                       three PMCs (Milwaukee, WI; St. Paul, MN; and Philadelphia, PA);
                    	 Reviewed previous OIG and Government Accountability Office audits
                       related to VBA pension program;
                    	 Analyzed a sample of completed pension claims to determine the
                       accuracy of payments made and the extent that processing delays
                       affected payment accuracy;
                    	 Conducted site visits to three PMCs to validate our sample review
                       methodology, discuss identified issues, and determine potential causes;
                    	 Obtained and reviewed PMC’s latest Systematic Analysis of Operations
                       and Workload Management Plans;
                    	 Analyzed the pension population for matching or similar attributes to
                       determine if potential duplicate records existed.

Criteria            To evaluate PMC decisions, we applied the same criteria PMCs are required
                    to follow when determining eligibility including VBA Manuals M21-1MR,
                    Part V; M21-1MR, Part X; and M21-4. In addition, 38 CFR, Chapter 1,
                    Section 3.700, prohibits concurrent pension benefits.

Data Reliability    To achieve our audit objectives, we obtained computer-processed data from
                    VBA’s corporate database and VETSNET Operation Reports. We tested the
                    data to establish validity and reliability. We sampled 90 records and
                    established all records were active, the records represented a pension (not a
                    compensation), and a decision had been completed during the review period.
                    We used corroborating documentation found in electronic documents located
                    in SHARE, Virtual VA, and Modern Award Processing-Development
                    applications. SHARE is a computer application used to establish and
                    manage claim data. Virtual VA is an electronic claims folder and provides
                    electronic storage for evidence and correspondence to and from VA.
                    Modern Award Processing-Development is an application to help perform
                    claims development and identify evidence that has and has not been
                    received.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           audit objectives. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require

VA Office of Inspector General                                                                23
                                                                 Audit of VBA’s Pension Payments


                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                24
                                                                Audit of VBA’s Pension Payments


Appendix C 	 Statistical Sampling Methodology

                    To determine accuracy of payments made to veterans and beneficiaries and
                    the extent to which processing delays affected payment accuracy, we
                    sampled from approximately 253,000 PMC decisions of pension claims
                    completed during the 1-year period that ended March 31, 2012. We selected
                    PMC claims that could potentially adjust the awarded benefit, which
                    included dependency changes, EVRs, income changes, IVMs, new awards
                    for veterans and beneficiaries, and nursing home and hospitalization
                    adjustments. We reviewed the accuracy of payments based on available
                    documentation found in SHARE, Virtual VA, and Modern Award
                    Processing-Development.

Population	         The sampled population consisted of six types of pension claims that the
                    PMC may have modified the awarded benefit. Table 4 identifies the total
                    number of claims completed by PMCs during the 1-year period and the
                    number of sample claims we reviewed.

Table 4
                                           Sample Size by Claim Type

                                                                             Total Claims
                               Pension Claim Type          Sample Size
                                                                              Population
                       Dependency Change                        90               23,273
                       EVR                                      93              122,213
                       Income Change                            90               37,282
                       IVM                                      41               13,956
                       New Award                                90               51,462
                       Nursing Home/Hospital
                                                                90                5,089
                       Adjustment
                       Total                                   494              253,275
                       Source: VA OIG statistical sample selection from completed claims in
                       VBA’s corporate database.

Sampling            We stratified the population by claim type and the PMC credited with
Design              completing the claim. From each unique stratum, we used a statistical
                    simple random sample. During the sample review, we identified the
                    payments affected by the claim decision and determined if veterans and
                    beneficiaries received accurate payments based on their eligibility at that
                    time. Additionally, we determined when the payments occurred during three
                    processing phases—prior to notification, after notification but within
                    timeliness goals, and after timeliness goals.


VA Office of Inspector General                                                                25
                                                                 Audit of VBA’s Pension Payments


                    Notification—PMCs generally rely on the veteran or beneficiary or
                    matching programs to provide change information. Given this, we decided it
                    was unreasonable to expect PMCs to be notified immediately by veterans,
                    beneficiaries, or other sources upon a change. We used a conservative
                    4-month period as a reasonable expectation that the veteran or beneficiary
                    should notify the PMC.

                    Processing—We identified claim types with VBA product codes. We
                    obtained the average days to complete goals for six product codes from
                    VBA’s M21-4, as shown in Table 5. The table defines processing timeliness
                    goals. The goals measure from the date of claim to the date the PMC
                    authorizes the award or completes the product. We used these timeliness
                    goals to allow for reasonable processing time at PMCs.

Table 5
                                 Average Days to Complete–Processing Timeliness Goals

                             Pension Claim Type             Product Code       Goal (Days)1

                       Dependency Change                         137                 30
                                                                 050               N/A
                       EVR
                                                                 155                 45
                                                                 150                 85
                       Income Change
                                                                 157                 85
                       IVM                                       154               N/A
                                                                 187                 90
                       New Award2
                                                                 197                 65
                       Nursing Home/Hospital
                                                                 135               N/A
                       Adjustment
                       Source: VBA’s M21-4
                       1
                         The M21-4 did not list a goal for three of the product codes we
                       reviewed (050, 135, and 154). Product code 050 identified when the
                       PMC received an EVR in which no action was necessary. For product
                       code 135 we allowed a target processing time of 60 days consistent
                       with VBA’s due process notification period for awaiting a response
                       from a veteran or beneficiary. For product code 154 we allowed a
                       target processing time of 120 days—to allow for 60 days of
                       independent verification of income and 60 days for VBA’s due process
                       notification period.
                       2
                         New awards include 180 and 190 series product codes.


VA Office of Inspector General                                                                26
                                                                   Audit of VBA’s Pension Payments


                    The current guidance from M21-4 provides indicators to measure the
                    timeliness of claims processing. According to VBA officials, VBA has not
                    updated the goals in the M21-4 since 2008. They stated that VBA updates
                    performance targets annually based on current and future workload, resource
                    needs, and management emphasis, and that those updates are published in the
                    annual budget submissions. However, we used the goals listed in M21-4 to
                    allow for reasonable processing time because they are indicators used to
                    monitor the general effectiveness of claims processing, and the intent is to
                    provide efficient, quality service to pension recipients.

Weights             We calculated estimates in this report using weighted sample data. Sampling
                    weights are computed by taking the product of the inverse of the
                    probabilities of selection at each stage of sampling.

Projections         We sampled 494 claims, which a projected 60 percent (+/- 4.6 percent)
and Margins of      required retroactive adjustments. We identified a projected $480 million in
Error               underpayments and $271 million in overpayments, for a total of over
                    $751 million. We adjusted these findings to allow processing time for
                    claims completed within VBA’s timeliness goals noted in Table 5, as well as
                    a notification time of 4 months. The adjusted results shown in Table 6 found
                    approximately $308 million in underpayments and $194 million in
                    overpayments for a total of $502 million. The projected average gross
                    adjusted payment was $4,500 (+/- $800) and occurred over an estimated
                    average of 15 months (+/- 1 month). Once PMCs received and processed the
                    claims, staff correctly calculated payment adjustments 96 percent
                    (+/- 2 percent) of the time.

                    Please note: Numbers are rounded for report presentation. In the following
                    tables, the margins of error (+/-) for each of the categories do not sum to the
                    margin of error for the total. Margins of error are calculated independently
                    for each projected value.

Table 6
                                 Projected Underpayments and Overpayments
                                                 (in millions)
                                   Under-              Over-
                  Category                     +/-                   +/-       Total        +/-
                                  Payments            Payments
                 Notification
                                     $115      $53       $100        $45        $215         $69
                 Delays
                 Processing
                                      193       41         94         43         287          58
                 Delays
                 Total               $308      $73       $194        $74        $502       $102

                 Source: OIG statistical analysis of underpayments and overpayments during
                 notification and processing delays
                 Note: Because of rounding, totals may not sum.


VA Office of Inspector General                                                                     27
                                                                Audit of VBA’s Pension Payments


                    Table 7 depicts the projected significantly delayed adjusted payments by
                    claim type, including the associated margins of error. For presentation
                    purposes, we combined results of income changes and dependency changes.

Table 7
                         Projected Significant Delayed Adjusted Payments by Claim Type
                                                   (in millions)
                                                Notification             Processing
                        Pension Claim Type                       +/-                     +/-
                                                  Delays                   Delays
                      EVR                           $113        $57          $52       $37
                      Income and Dependency
                                                      42          13          67         27
                      Change
                      IVM                             55          38            9        13
                      New Award                     N/A         N/A          148         25
                      Nursing Home/ Hospital
                                                         5          4     11        3
                      Adjustment
                      Source: OIG statistical analysis of significant notification and
                      processing delays by claim type
                      Note: Because of rounding, totals may not sum.

                    During the 1-year period ending March 31, 2012, a projected
                    153,000 (+/- 11,600) claims required retroactive payment adjustments.
                    Table 8 details the projected maintenance claims and new awards with
                    retroactive payment adjustments, and the percentage of the population of
                    claims they represent, as outlined in Table 4.

Table 8
                             Projected Claims With Retroactive Payment Adjustments
                                     Claims Completed April 2011–March 2012
                                                 Number of               Percent of
                        Pension Claim Type                       +/-                    +/-
                                                  Claims                  Claims
                      Maintenance Claim           108,400      12,500          54             6
                      New Award                     44,600      3,200          87             6
                      Total Claims with
                      Retroactive                  153,000       11,600       60        5
                      Adjustments
                      Source: OIG statistical analysis of maintenance claims and new awards
                      with retroactive payment adjustments
                      Note: Because of rounding, totals may not sum.




VA Office of Inspector General                                                                 28
                                                                Audit of VBA’s Pension Payments


                    We projected the number of claims requiring payment adjustments that
                    experienced significant delays in Table 9. Of the projected 153,000 claims
                    with retroactive payment adjustments, approximately 111,100 claims
                    experienced significant delays affecting a projected 93,000 (+/- 10,200)
                    veterans’ and beneficiaries’ awards or adjustments of pension payments.
                    The 93,000 veterans and beneficiaries accounted for a calculated 18 percent
                    of 514,000 active pension recipients as of March 2012.

Table 9
                         Projected Claims With Significantly Delayed Adjusted Payments
                                    Claims Completed April 2011–March 2012
                                                                    Number of
                                 Type of Adjustment                                   +/-
                                                                     Claims
                      Significant Notification Delays With
                                                                      56,400        10,200
                      Adjustments
                      Significant Processing Delays With
                                                                      84,500        10,700
                      Adjustments
                      Significant Notification and Processing
                                                                    (29,800)          8,500
                      Delays With Adjustments
                      Total Significant Delays with
                                                                     111,100        11,700
                      Adjustments
                      Source: OIG statistical analysis of pension claims with significant
                      notification and processing delays requiring adjustments
                      Note: Because of rounding, totals may not sum.

                    The 56,400 significant notification delays accounted for a projected
                    37 percent (+/- 6 percent) of 153,000 claims requiring adjustment. The
                    84,500 significant processing delays accounted for a projected 55 percent
                    (+/- 6 percent) of 153,000 claims requiring adjustment.

                    PMCs completed a projected 31,900 new claims an estimated average of
                    6 months (+/- 1 month) beyond their timeliness goals. We projected the
                    number and amount of new awards with significant processing delays in
                    Table 10.




VA Office of Inspector General                                                                29
                                                                 Audit of VBA’s Pension Payments


Table 10
                                 New Awards With Significant Processing Delays
                                             (dollars in millions)
                                                 Delayed                  Under-
                         New Award Type                         +/-                      +/-
                                                 Awards                  Payments

                      Veterans                     17,400      3,400         $90        $29

                      Veterans’ Beneficiaries      14,500      2,900          58          19

                      Total                        31,900      4,500       $148         $25

                      Source: OIG statistical analysis of new awards with significant
                      processing delays
                      Note: Because of rounding, totals may not sum.

                    We estimated the number and amount of maintenance claims with
                    significantly delayed adjusted payments in Table 11.

Table 11
                         Maintenance Claims With Significant Notification or Processing
                                          Delays (dollars in millions)
                                                                          Total Over-
                                                  Delayed
                       Pension Claim Type                         +/-     and Under-      +/-
                                                Adjustments
                                                                           Payments
                      EVR                         41,400       10,100        $165        $80
                      Income and
                                                  31,000        3,700         110          30
                      Dependency Change
                      IVM                           3,900       1,500          64          44
                      Nursing Home/
                                                    3,000         500          16           4
                      Hospital Adjustment
                      Total                       79,200       11,800        $354        $96

                      Source: OIG statistical analysis of maintenance claims with significant
                      delays
                      Note: Because of rounding, totals may not sum.




VA Office of Inspector General                                                                  30
                                                                 Audit of VBA’s Pension Payments


                    We identified the estimated number of maintenance claims that received
                    significant delays in adjusted benefits and the associated underpayments and
                    overpayments. Table 12 details the projected notification delays and
                    Table 13 details the projected processing delays.

Table 12
                       Projected Notification Delays by Maintenance Claim Type
                                           (dollars in millions)
            Pension Claim          Delayed               Under-               Over-
                                                 +/-                  +/-                    +/-
                Type             Adjustments            Payments             Payments
           EVR                     33,700       9,400      $83       $51        $30          $25
           Income and
           Dependency              18,200       3,400       32        11         11           7
           Change
           IVM                      3,900       1,700        0         0         55          38
           Nursing Home/
           Hospital                   600        300      0.04      0.05          5           4
           Adjustment
           Total                   56,400      10,200    $115        $53       $100          $46
           Source: OIG statistical analysis of maintenance claims with notification delays
           Note: Because of rounding, totals may not sum.

Table 13                Projected Processing Delays by Maintenance Claim Type
                                           (dollars in millions)
            Pension Claim          Delayed               Under-               Over-
                                                 +/-                  +/-                    +/-
                Type             Adjustments            Payments             Payments
           EVR                     28,100       9,000      $19       $16        $33          $33
           Income and
           Dependency              20,900       3,600       25        13         42          24
           Change
           IVM                        760        900         0         0          9          13
           Nursing Home/
           Hospital                 2,900        500         1         1         10           3
           Adjustment
           Total                   52,600      10,300      $46        21        $94          $43
           Source: OIG statistical analysis of maintenance claims with processing delays
           Note: Because of rounding, totals may not sum.
                    The margins of error and confidence intervals are indicators of the precision
                    of the estimates. If we repeated this audit with multiple samples, the
                    confidence intervals would differ for each sample but would include the true
                    population value 90 percent of the time.

VA Office of Inspector General                                                                     31
                                                                    Audit of VBA’s Pension Payments


Appendix D            Potential Monetary Benefits in Accordance With
                      Inspector General Act Amendments



                                                                      Better Use      Questioned
      Recommendations            Explanation of Benefits
                                                                       of Funds         Costs


                                 We identified a projected
                                 $480 million in under-
                                 payments and $271 million in
                                 overpayments, for a total of
                                 over $751 million. We
                                 adjusted these findings to
                                 allow processing time for
                                 claims completed within
              1–6 
              VBA’s timeliness goals noted         $502 million         $0
                                 in Table 5, as well as
                                 notification time of 4 months.
                                 The adjusted results shown in
                                 Table 6 found approximately
                                 $308 million in under-
                                 payments and $194 million in
                                 overpayments for a total of
                                 $502 million.

                                                            Total     $502 million        $0




VA Office of Inspector General                                                                  32
                                                                                 Audit of VBA’s Pension Payments


Appendix E               Under Secretary for Benefits Comments


                  Department of
                  Veterans Affairs
                                                                     Memorandum
          Date:        August 9, 2013

          From:        Under Secretary for Benefits (20)

          Subj:
                       OIG Draft Report—Audit of Pension Payments
                       [Project No. 2012-00181-R5-0012)—VAIQ 7363942 



            To:        Assistant Inspector General for Audits and Evaluations (52)




                  1.   Attached is VBA’s response to the OIG’s draft report: Audit of Pension Payments.



                  2.   Questions may be referred to Catherine Milano, Senior Program Analyst, at
                       461-9216.




                        Attachment




VA Office of Inspector General                                                                               33
                                                                   Audit of VBA’s Pension Payments


                            Veterans Benefits Administration (VBA) 

                               Comments on OIG Draft Report 

                                  Audit of Pension Payments 


VBA provides the following comments:

VBA agrees with the central finding of this report, that “VBA can improve the timeliness
. . . of pension payment processing.” Consistent with the Department’s goal of processing
disability claims in less than 125 days with 98% accuracy, VBA is constantly seeking ways to
improve claims processing and provide better service to claimants. VBA also agrees with OIG’s
recommendations that it must take steps to preserve the integrity of the pension program.
However, VBA disagrees with portions of OIG’s analysis and questions whether some of OIG’s
recommendations will in fact remedy problems identified during the audit. VBA further notes
that the increased program integrity measures recommended by OIG (i.e., verifying income and
conducting additional income matches) will also add to the increased workload that OIG
identifies on page two as a cause of VBA’s processing delays. We address each of these issues
in turn.

OIG states in the second paragraph on page two that delays in claims processing occurred
because of, “increased workload and a lack of clear communication of priorities.” As a remedy
for this communication gap, OIG recommends that Pension Management Centers (PMCs),
“clearly outline processing priorities in their workload management plans.” VBA acknowledges
that increased workload adversely affects the PMCs’ ability to timely process pension claims and
agrees that communication regarding the requirements of a workload management plan is
necessary to achieve efficiency. However, we disagree that such a plan will necessarily improve
processing of pension claims for two reasons.

First, VBA’s three PMCs process more than just pension claims. In the past three years, the
PMCs have received an average of 140,000 burial claims annually. PMCs also process
dependency and indemnity compensation (DIC) claims, which, due to recent prioritization
efforts, now number approximately 1,626 in the backlog (June 2013) as compared to 6,020 in
January 2013. The high volume of non-pension work is relevant because shifting resources to
prioritize one component of the PMC workload (e.g., pension maintenance claims) necessarily
diverts resources from other aspects, and, as a result, may adversely affect the timeliness of other
claims processed by the PMCs. OIG’s analysis overlooks the fact that the prioritization of any
part of the PMC workload requires resources that will not be available to work other PMC
claims.

Second, although establishing clear workload priorities will clarify expectations about workload
and the current priority of effort, OIG’s recommendation is premised on the assumption that the
established priority of effort would automatically default to pension or pension maintenance
claims. Based on VA policy regarding the delivery of benefits, VBA has consistently resourced
at a higher level the processing of claims for initial entitlement (e.g., Veterans or survivors
pension) as compared to pension maintenance claims. In contrast, our experience is that an
initial applicant for pension or DIC is not likely to be receiving any VA benefits. Accordingly,
VBA’s practice is that PMCs generally allocate more resources to the processing of initial
applications for pension or DIC benefits than for maintenance workload. Because a clear

VA Office of Inspector General                                                                   34
                                                                 Audit of VBA’s Pension Payments


workload plan, although valuable for other reasons, may not necessarily prioritize pension or
pension maintenance claims, it is unclear whether OIG’s recommendation will meaningfully
address the problem of delays in processing pension claims.

Throughout the report, OIG states that delays in processing both original (new) and pension
maintenance claims produces under- and overpayments. VBA agrees that delays in processing
adjustments to existing (running) awards create under- and overpayments. However, in the third
paragraph on page three, OIG states that, “PMCs were not able to award benefits on an estimated
31,900 new claims within their timeliness goals, which resulted in a projected $148 million in
underpayments” (emphasis added). Although delays in processing claims may cause undue
hardship for some claimants and should be avoided if at all possible, VBA does not agree that
delays in processing new pension claims produces underpayments. To the extent a Veteran’s or
beneficiary’s benefits are delayed, effective date provisions in the law make the Veteran or
beneficiary whole when VBA processes the claim and makes payment.

OIG states that improving the timeliness of pension maintenance claims will reduce the amount
of under- and overpayments. VBA agrees with this conclusion and the premise that both under-
and overpayments should be reduced. However, OIG’s focus on the number and amount of
under- and overpayments as a measure of claims processing performance implies that such
benefit adjustments are avoidable, which is incorrect and contrary to law. The pension program
operates retroactively by design. By law, pension payments are reduced by a beneficiary’s
annual income. See e.g., 38 U.S.C. § 1521(b) (providing that “pension shall be paid to the
veteran at the annual rate of $11,830, reduced by the amount of the veteran’s annual income”)
(emphasis added). Although VA calculates initial pension rates based on the income, medical
expenses, and dependency information provided by the applicant with his or her application,
both VA and the applicant lack perfect information on whether income, medical expenses, or
dependency will in fact change during the reporting period. Thus, any implication that under-
and overpayments are avoidable is misplaced.

VBA has concerns about the validity of OIG’s findings and recommendations to the extent that
they attempt to link timeliness with accuracy and imply that VBA can somehow enforce
expedited reporting to VA when beneficiary circumstances change. On page i, paragraph two,
OIG states, VBA “can improve the timeliness, and therefore the accuracy, of pension payment
processing.” This language suggests a link between the timeliness of processing pension claims
and accuracy, which may be misleading. Timeliness measures the time required to complete an
action. The term “accuracy,” when used in the context of claims adjudication, typically refers to
an assessment of whether VA employees followed agency policies and procedures. Accordingly,
the concepts are materially different and mutually exclusive. In addition, as OIG noted in the
report, “[o]nce PMC staff processed the claims, they correctly calculated pension payments for
new awards and adjustments 96 percent of the time.”

On page 12 of its report, OIG asserts that VBA could reduce under- and overpayments “[i]f
PMCs obtained change information within 4 months of the change in eligibility and processed
adjustments and new claims within established timeliness goals.” As OIG acknowledges, a large
part of any effort to reduce under- and overpayments is necessarily dependent on claimant
reporting, which presents three challenges. First, VBA has no control over claimant reporting
behavior. Second, many claimants have no incentive to timely report changes in entitlement.

VA Office of Inspector General                                                                35
                                                                  Audit of VBA’s Pension Payments


Claimants who fail to timely report income and status changes and benefit from an overpayment
suffer no consequences other than the creation and possible repayment of a debt to the
Government. While claimants who will receive increased benefits due to changes in
circumstances, such as decreased income or increased medical expenses, may promptly report
the changes, statutory effective date provisions protect the benefits of those who do not. Third,
VA regulations, 38 C.F.R. § 3.660(a), and VBA communications (e.g., pension decisions and
VA Form 21-8767, Disability Pension Award Attachment) currently notify beneficiaries that they
must report changes in income or circumstances that affect entitlement status. Although VBA
can emphasize the reporting requirement, for those beneficiaries whose status changes VBA
cannot independently detect, it will be unable to significantly reduce the under- and
overpayments caused by untimely beneficiary reporting.

Four of OIG’s recommendations require that VBA take steps to improve the integrity of the
pension program. VBA’s efforts to improve program integrity have been underway for over a
year and include redesigning its income and net worth verification. In the first quarter of fiscal
year (FY) 2014, VBA will begin verifying the income of pension applicants at the time of
application using federal tax information (FTI) supplied by the Internal Revenue Service (IRS)
and Social Security Administration (SSA) and stored in VBA systems. After implementation of
this up-front income verification initiative, VBA will work with the Office of Information and
Technology (OI&T) to implement a post-award audit program which will take advantage of
more timely IRS and SSA data and replace the former Income Verification Match program.
After VBA fully implements the up-front income verification initiative and begins auditing
existing beneficiaries, VBA will rely to a lesser extent on self-reported changes in income and
entitlement status. VBA is also working to establish a matching program with the Centers for
Medicare and Medicaid Services for purposes of identifying pension beneficiaries who are in
receipt of Medicaid-covered nursing home care and subject to the $90 monthly limit on pension.

In summary, VBA will continue to take decisive action to preserve the integrity of the pension
program, to include improving eligibility verification and the timeliness of pension processing.
However, VBA is not responsible for an over- or underpayment in cases where the beneficiary
did not timely notify it of a change in circumstance that affects pension entitlement, or where the
benefit adjustment was based on the difference between the claimant’s estimate of income and
expenses for a given period and the countable income actually received during that period.




VA Office of Inspector General                                                                  36
                                                                  Audit of VBA’s Pension Payments


The following comments are submitted in response to the recommendations in the OIG
draft report:

Recommendation 1: We recommend the Under Secretary for Benefits ensure the Pension
and Fiduciary Service implements procedures that ensure continued veteran and
beneficiary eligibility.

VBA Response: Concur. After full implementation of the up-front income verification
initiative, VBA will replace its Income Verification Match (IVM) program with a new post-
award auditing process. Combined with current procedures, which require beneficiaries to report
changes in circumstances that affect eligibility, these processes will ensure that VBA verifies
continued Veteran and beneficiary eligibility.

Target Completion Date: November 30, 2014

Recommendation 2: We recommend the Under Secretary for Benefits ensure the Pension
and Fiduciary Service implements a plan to reduce the amount of underpayments and
overpayments due to changes in income and dependency.

VBA Response: Concur. VBA’s plan to reduce under- and overpayments has three elements:
(1) verify the income of pension applicants at the beginning of the process, (2) periodically audit
the income of a sample of existing beneficiaries to verify continued eligibility, and (3)
implement, where possible and contingent on other VBA benefit priorities, efficiencies in claims
processing to reduce the time required to process pension claims. Because these elements are
addressed in recommendations one, three, and four, respectively, VBA requests closure of this
recommendation.

Recommendation 3: We recommend the Under Secretary for Benefits implement the use
of the enhanced interagency exchange agreements with the Internal Revenue Service and
Social Security Administration to reduce delays in verifying veteran and beneficiary
reported income.

VBA Response: Concur. Action to accomplish this recommendation is already underway as
part of VBA’s up-front income verification initiative. As a result of revised Computer Matching
Agreements (CMAs) with the IRS and SSA and the IRS’ approval of the processes and
technology for transferring federal tax information (FTI), VBA has extracted records for pension
applicants and received FTI from IRS and SSA that will be used to verify income at the time of
application. VBA is currently validating the data and developing procedures for implementation.

Target Completion Date: December 31, 2013

Recommendation 4: We recommend the Under Secretary for Benefits establish a matching
program with Medicaid to automatically identify veterans and beneficiaries that require
nursing home adjustments.

VBA Response: Concur. VBA is currently identifying the Medicaid data elements that will be
made available to VBA. We are also finalizing a draft CMA with the Centers for Medicare and
Medicaid Services (CMS) that, once approved and funded, will identify VA beneficiaries

VA Office of Inspector General                                                                  37
                                                                Audit of VBA’s Pension Payments


receiving Medicaid-covered nursing home services. VBA’s ability to implement this CMA
depends on the availability of information technology resources to establish the interconnection
security agreement and matching programming, as well as funding for conducting the match.
Implementation is also contingent upon approval from the Office of the General Counsel and the
VA Data Integrity Board.

Target Completion Date (CMA only): January 31, 2014

Recommendation 5: We recommend the Under Secretary for Benefits ensure the Pension
Management Centers clearly outline processing priorities in their workload management
plans.

VBA Response: Concur. Each PMC currently has its own workload management plan, which
describes the types of claims that VBA considers a priority. In April 2013, VBA implemented a
national prioritization workload management plan, affecting all PMCs and regional offices. This
plan prioritizes one and two year old claims, dependency and indemnity compensation claims,
Fully Developed Claims, and claims for those who are homeless, terminally ill, former Prisoners
of War, or Medal of Honor recipients. This prioritization guidance supersedes all local workload
management plans.

The PMC workload management plans will be assessed and modified as appropriate. The Office
of Field Operations will work with Pension and Fiduciary Service to ensure that each PMC’s
workload management plan clearly defines priorities and employee’s roles for working pension
claims.

Target Completion Date: February 28, 2014

Recommendation 6: We recommend the Under Secretary for Benefits ensure the Pension
and Fiduciary Service implements its plan to revise triage procedures and establish
processing lanes to ensure prompt screening and routing of claims.

VBA Response: Concur. Establishment of processing lanes will not contribute to the prompt
screening and routing of claims. VBA will revise triage procedures for PMCs to facilitate
prompt screening and routing of claims to appropriate processing teams (i.e., rating or
maintenance teams) and within processing teams.

Target Completion Date: February 28, 2014

Recommendation 7: We recommend the Under Secretary for Benefits ensure the Pension
and Fiduciary Service corrects the duplicate records identified in this audit.

VBA Response: Concur. We are working with the PMCs and other VBA/VA offices to correct
the duplicate records that OIG identified during the audit. We note that some of the duplicate
records require system-level corrections by VBA’s Office of Resource Management and VA’s
Office of Information and Technology.

Target Completion Date: October 31, 2013


VA Office of Inspector General                                                               38
                                                                  Audit of VBA’s Pension Payments


Recommendation 8: We recommend the Under Secretary for Benefits ensure the Pension
and Fiduciary Service requests an additional data test be added to their current series of
data tests that would identify claimant records with similar or same names under the same
file number.

VBA Response: Concur. Current data tests are developed with VA OI&T and provided to P&F
Service on a quarterly basis. VBA is currently developing the criteria for the additional data test
and will coordinate its implementation with OI&T.

Target Completion Date: December 31, 2013




VA Office of Inspector General                                                                  39
                                                         Audit of VBA’s Pension Payments


Appendix F          Office of Inspector      General       Contact       and     Staff
                    Acknowledgments

                      OIG Contact	       For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.

                      Acknowledgments	   Larry Reinkemeyer, Director
                                         Lance Kramer
                                         Brad Lewis
                                         Russ Lewis
                                         Daniel Morris
                                         Carla Reid
                                         Melanie Tsai
                                         Nelvy Viguera Butler
                                         Marilyn Barak




VA Office of Inspector General                                                       40
                                                                 Audit of VBA’s Pension Payments


Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




                    This report will be available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               41
